No.

IN THE
SUPREME COURT OF THE UNITED STATES

PERCY ST. GEORGE
— PETITIONER
(Your Name)
KEVIN RANSOM-SUPERVSJTENDENT
SCI DALLAS,-et al • /
— RESPONDENT^
ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
SEP 03 2020
supt?EEM°FcTnnfffLM cK

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
PERCY ST. GEORGE, DL-7766

(Your Name)
1000 Follies Road

(Address)
DALLAS, PA 18612-0286

(City, State, Zip Code)

(Phone Number)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
A

The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
\[ A is unpublished.
B

The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
V A is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix -£___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
\11 is unpublished.
The Superior Court of PA.

The opinion of the
appears at Appendix__5__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION
[ ] For eases from federal courts:
The date on which the United States Court of Appeals decided mv case

was

June 30, 2020

J

[/1 No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix

[3

§if,
in Application No.__ A

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix c

Aug. 1:2
201 9

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-2-

I.

QUESTION(S) PRESENTED
WHETHER REASONABLE JURIST COULD DEBATE THE THIRD CIRCUIT
COURT OF APPEALS ADOPTION THAT THE DISTRICT COURT'S
RULING THAT APPELLANT'S PETITION DOES NOT STATE A VALID

CLAIM

OF THE DENIAL OF A CONSTITUTIONAL RIGHT. Slack v. McDaniel

529 U.S. 473/ 484 (2000); see also Miller-El v. Cockrell/ 537 U.S
322, 336 (2003)& SHOULD HAVE THE MERITS OF PETITIONER'S CLAIMS
BEEN A FACTOR IN THE UNITED STATES COURT OF APPEALS DECISION?

-3-

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
M All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
KEVIN J. RANSOM SUPERINTENDENT OF SCI DALLAS
JOSH SHAPIRO ATTORNEY GENERAL OF THE STATE OF PENNSYLVANIA
LARRY KRASNER DISTRICT ATTORNEY OF PHILADELPHIA

RELATED CASES
Additional charges against Petitioner were brought under separate
numbers Commonwealth v. St. George, No. CP-51-CR-403962-1997,
& CP-51-CR-404011, Petitioner has filed habeas petitions in the
United States District For The Eastern District of Pennsylvania
arising from No. CP-51-CR-403962 at Civ. Act. No. 18-905

-4-

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A -entry

of judgment from united states courts of
APPEAL.
Pg. 12.

APPENDIX B- ORDER & REPORT .& RECOMMENDATION FROM THE UNITED
STATES DISTRICT COURT FOR THE EASTERN DISTRICT
Pg. 13
APPENDIX Cr ORDER FROM THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
Pg. 14
APPENDIX D- NON_PRECENTIAL DECISION FROM THE SUPERIOR COURT
OF PENNSYLVANIA
Pg. 15

APPENDIX E - PRO_SE SUPPLEMENTAL MEMORANDUM OF LAW

APPENDIX F

- PETITION FOR ALLOWANCE OF APPEAL IN THE

SUPREME COURT OF PENNSYLVANIA EASTERN DISTRICT
APPENDIX G

pg. 16

Pg. 17

PETITION UNDER 28 U.S. C. §2254 FOR WRIT OF

HABEAS CORPUS BY A PERSON IN STATE CUSTODY

-5-

Pg. 18

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Slack v. McDaniel, 529 U.S. 473/ 484 (2000)

Pg. 1 2

Miller-El v. Cockrell, 537 U.S. 322, 336 (2003

Pg. 12

O'Sullivan v. Boerckel, 526 U.S. 838, 845 (1999)

Pg. 12

Holland v. Florida, 560 U.S. 631 649 (2010)

Pg. 9

STATUTES AND RULES
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
ARTICLE [VI]

Pg. 7

ARTICLE [XIV]

Pg. 7

ARTICLE [V]

Pg. 7

See. 28 U.S.C. §2244(b)(3)(A)

Pg. 12

See. 28 U.S.C. §2254]

Pg. 12

See. 28 U.S.C. §2253(c)(2)

Pg. 12

OTHER
-6-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
ARRICLE [vi]

In all Criminal prosecutions, the accused shall enjoy
the right to a speedy and public Trial, by an impartial jury
of the State and District wherein the Crime shall have been
committed which District shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusa­
tion; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses;
ARTICLE [XIV]
section, all persons born or naturalized in the United
States and subjected to the jurisdiction thereof, are citizens
of the United States and of the State wherein they reside.
No State shall make or enforce any law which shall abridge
the privileges; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the law.
ARTICLE [V]
No person shall be held to answer for a capital or
otherwise infamous crime, unless on a [Capital or Otherwise]
presentment or indictment of a Grand Jury except in Cases arising
in the land or naval forces or in the Militia, when in actual ser
vice in time of war or public danger; nor shall any person be
subjected for the same offense to be twice put in jeopardy of
life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty or
property without due process of law; nor shall private property
be taken for public use, without just compensation.

-7-

STATEMENT OF THE CASE
Following a jury Trial in October 1997, petitioner was
convicted of kidnapping and other crimes, Seee; Commonwealth v.
St. George, No. CP—51-CR-405232-1997 (C.P. Phila. 1997)
Petitioner was sentenced in December 1997 to a fifteen to thirty
year term of incarceration.
Additional charges against petitioner were brought under
separate docket numbers. See. Com, v St. George, No. CP-51-CR403962-1997 (C.P. Phila. 1998); Com. v. St. George7 No. CP-51-CR40401 1-1997).
uPetitioner's counsel stated on the record, that was going
raise issues on post-verdict motions on Petitioner's behalf, but
failed to do so.
Petitioner file a pro se notice of appeal on February 25,
1998, that was returned to peitioner with a notice from the
clerk, that petitioner couldn't appeal said case, because I
didn't go to trial yet. And crossed out the case caption I was
filing under, and submitted another case that petitioner had not
been to trial on yet.
After writing the lower court several letters with no reply,
petitioner filed another appeal nunc pro tunc on June 24, 1999,
After the court failed to on that appeal, Petitioner filed a
Petition For a writ of mandamus with the Pennsylvania Superior
Court. The Superior Court denied this petition on February 29,
2000, then on April 3, 2000, Petitioner filed his initial petitio
for writ of habeas corpus.
The Petitioner has been on an arduous journey every since.
Please follow Petitioner's Procedural History through magistrates
Judge Rueter's Report & Recommendation.

-8-

REASONS FOR GRANTING THE PETITION
I.

WHETHER REASONABLE JURIST COULD DEBATE THE THIRD CIRCUIT

COURT OF APPEALS ADOPTION THAT THE DISTRICT COURT'S RULING THAT
APPELLANT'S PETITION WAS UNTIMELY See. 28 U.S. C. §§2244 (d) (1)
2253 (c), AND ALSO HAS NOT ARGUABLY DEMONSTRATED ANY BASIS FOR
EQUITABLE TOLLING BECAUSE HE HAS NOT SHOWN THAT HE HAS BEEN
PURSUING HIS RIGHT DELIGENTLY, AND

THAT SOME EXTRAORDINARY

CIRCUMSTANCES SLack v. McDaniel,529, U.S. 473 484 (2000) STOOD
IN HIS WAS AND PREVENTED TIMELY FILING. See. Holland v. Florida,
560 U.S. 631 649 (s010).

-9-

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

0August

27, 2020

Date:

-10-

-Zl-

XiaM3ddV

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT
CLERK

United States Court of Appeals
FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: www.ca3.uscourts.gov

June 30, 2020
Ronald Eisenberg, Esq.
Office of Attorney General of Pennsylvania
1600 Arch Street
Suite 300
Philadelphia, PA 19103
Max C. Kaufman, Esq.
Philadelphia County Office of District Attorney
3 South Penn Square
Philadelphia, PA 19107
Percy St. George
Dallas SCI
1000 Follies Road
Dallas, PA 18612

RE: Percy St. George v. Superintendent Dallas SCI, et al
Case Number: 19-3568
District Court Case Number: 2-19-cv-03963
ENTRY OF JUDGMENT
Today, June 30, 2020 the Court issued a case dispositive order in the above-captioned matter
which serves as this Court's judgment. Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.

